Office of Inspector General
    Audit Report



DOT’S SUSPENSION AND DEBARMENT
  PROGRAM CONTINUES TO HAVE
     INSUFFICIENT CONTROLS
      Department of Transportation

       Report Number: ZA-2015-003
      Date Issued: October 15, 2014
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: DOT’s Suspension and Debarment                                              Date:    October 15, 2014
           Program Continues To Have Insufficient Controls
           Department of Transportation
           Report No. ZA-2015-003

  From:    Mary Kay Langan-Feirson                                                         Reply to
                                                                                           Attn. of:    JA-60
           Assistant Inspector General for
             Acquisition and Procurement Audits

    To:    DOT Senior Procurement Executive
           Federal Aviation Administrator

           The Department of Transportation (DOT) is responsible for overseeing billions in
           contract and grant obligations each year. As a steward of taxpayer dollars, DOT
           must adhere to Federal suspension and debarment (S&D) regulations, which
           exclude parties 1 found to be unethical, dishonest, or otherwise irresponsible from
           receiving contracts and grants involving Federal funds. S&D actions are among
           the Government’s strongest tools to deter unethical and unlawful use of Federal
           funds because one Federal agency’s S&D action applies governmentwide.
           Consequently, it is important that DOT make timely S&D decisions and accurately
           and timely report its decisions to the governmentwide S&D System for Award
           Management (SAM), previously known as the Excluded Parties List System
           (EPLS). 2 Timely and accurate reporting ensures that agencies are not awarding
           contracts or grants to irresponsible parties.

           In January 2010, we reported that DOT’s S&D program lacked the controls
           needed to prevent awards of Federal contracts and grants to excluded parties. 3

           1
             In this report, we use the term “parties” to refer to businesses, individuals, nonprofits, State and local governments,
           and other entities subject to suspension and debarment. An excluded party is a party that has been suspended, debarred,
           voluntarily excluded, or otherwise prohibited from receiving Federal awards, certain subcontracts, or certain types of
           Federal assistance and benefits across the Government.
           2
             We used “SAM” throughout this report to refer to both the current and prior governmentwide S&D systems—SAM
           and EPLS, respectively. Our audit analysis involved some S&D cases that occurred before the transition from EPLS to
           SAM. The transition began in July 2012, but EPLS was shut down in November 2012.
           3
             DOT’s Suspension and Debarment Program Does Not Safeguard Against Awards to Improper Parties (OIG Report
           Number ZA-2010-34), Jan. 7, 2010. OIG reports are available on our Web site at: www.oig.dot.gov.
                                                                                                                2


Specifically, we found significant delays in DOT’s S&D decision making and
reporting and that its S&D policies, procedures, and internal controls were
inadequate to safeguard against Federal awards to excluded parties. 4 In
August 2011, the Government Accountability Office (GAO) reported similar
deficiencies across the Federal agencies it reviewed, including a lack of dedicated
S&D programs with full-time staff and insufficient S&D policies and procedures. 5
To help strengthen Federal agencies’ S&D programs, the Office of Management
and Budget (OMB) issued a memorandum in 2011 directing agencies to enhance
their S&D performance. 6 GAO conducted a follow-up review and reported in
May 2014 that the agencies who took action based on its 2011 report
recommendations—such as adding positions and defining roles and
responsibilities—had notable increases in suspensions and debarments. 7

Given the deficiencies we previously identified in DOT’s S&D policies and
procedures and OMB’s emphasis on improving agencies’ S&D performance, we
conducted a follow-up review of the DOT S&D program. Specifically, our
objectives were to assess (1) the timeliness of DOT’s decisions to suspend, debar,
or take other S&D actions and (2) the timeliness and accuracy of DOT’s reports to
the governmentwide S&D system.

We conducted this review between March 2013 and September 2014 in
accordance with generally accepted Government auditing standards. To conduct
our audit, we reviewed Federal and DOT S&D policies, interviewed
representatives from the Department’s Office of the Senior Procurement Executive
(OSPE) and Operating Administrations, 8 and analyzed data from the DOT S&D
system and SAM to determine if the Department complied with Federal and DOT
S&D requirements. Our audit universe included all 218 S&D parties listed in the
DOT S&D system as of June 20, 2013. 9 Exhibit A provides additional details on
our scope and methodology.




4
  The Department has addressed all six of our recommendations from the 2010 audit report.
5
  GAO, Some Agency Programs Need Greater Attention, and Governmentwide Oversight Could Be Improved
(GAO 11-739), Aug. 2011. DOT was not included in this review.
6
  OMB memorandum M-12-02, Suspension and Debarment of Federal Contractors and Grantees, Nov. 15, 2011.
7
  GAO, Agencies Have Taken Steps to Improve Suspension and Debarment Programs (GAO-14-513), May 2014. DOT
was not included in this review.
8
  Our review included 11 Operating Administrations that participate in DOT’s S&D program: the Federal Aviation
Administration (FAA), Federal Highway Administration (FHWA), Federal Motor Carrier Safety Administration
(FMCSA), Federal Railroad Administration (FRA), Federal Transit Administration (FTA), Maritime Administration
(MARAD), National Highway Traffic Safety Administration (NHTSA), Pipeline and Hazardous Materials Safety
Administration (PHMSA), Research and Innovative Technology Administration (RITA), St. Lawrence Seaway
Development Corporation (SLSDC), and the Office of the Secretary (OST).
9
  Of the 218 parties, 141 are associated with S&D cases assigned to FHWA. The remaining parties are broken down as
follows: FTA (49), FAA (15), MARAD (8), NHTSA (3), and PHMSA (2).
                                                                                                                   3


RESULTS IN BRIEF
Despite the Department’s actions to address the untimely S&D decisions and
reporting identified in our 2010 audit, many of the Department’s decisions to
suspend, debar, or take other S&D actions continue to be untimely. DOT requires
Operating Administrations to make these decisions within 45 days of notification
of an S&D referral from the Office of Inspector General’s Office of Investigations
or other sources. However, our review determined that Operating Administrations’
decisions for at least 87 of the 218 S&D parties (40 percent), entered into the DOT
S&D system between April 2010 and April 2013, were made after the 45-day
requirement—with delays averaging 205 days. 10 In addition, significant data errors
exist in the DOT S&D system. For example, FHWA officials stated that the
system contained inaccurate data for 92 percent of its S&D parties in our universe,
such as blank entries and incorrect dates in critical fields that the Department uses
to assess the timeliness of Operating Administrations’ S&D decisions. These data
errors undermine the system’s effectiveness as a management tool.

The Department continues to provide untimely and inaccurate reporting of its
S&D actions to SAM. Federal regulations 11 require agencies to report exclusion
actions, such as suspensions and debarments, into SAM within 3 days for
procurement transactions (such as contract actions) and 5 days for non-
procurement actions (such as grant-related actions). 12 Timely reporting to SAM
helps ensure that Federal agencies do not award contracts and grants to suspended
or debarred parties. DOT’s S&D system reported exclusion actions for 144 of the
218 parties we reviewed; however, the Department did not report a significant
number of the 144 excluded parties within the required timeframes. Additionally,
the Department did not adequately reconcile and validate the data in the DOT
S&D system with the data reported in SAM. Specifically, our review of all
parties 13 in the DOT S&D system identified seven parties that were listed as
suspended or debarred in the DOT S&D system but were not included in SAM. By
failing to report these data, the Department puts the Federal Government at risk of
doing business with prohibited parties found to be unethical, dishonest, or
irresponsible.

We are making a series of recommendations to strengthen DOT’s S&D program.




10
   Delays ranged from 2 to 1,373 days.
11
   Federal Acquisition Regulations (FAR) 9.404(c)(3) and 2 Code of Federal Regulations (CFR) § 180.520(c).
12
    Non-procurement transactions are transactions other than procurement contracts—such as grants, cooperative
agreements, scholarships, fellowships, contracts of assistance, loans, and subsidies.
13
   For this analysis, we reviewed all 520 parties reported in the DOT S&D system as of June 20, 2013, including those
with initial referral dates prior to April 1, 2010.
                                                                                 4


BACKGROUND
The purpose of the S&D program is to prevent the Government from doing
business with parties found to be unethical, dishonest, or irresponsible. DOT Order
4200.5E, “Suspension and Debarment Procedures and Ineligibility,” describes the
Department’s policies for implementing suspension, debarment, and ineligibility
procedures and is intended to ensure DOT conducts a vigorous S&D program.
Exhibit B summarizes key elements of Federal suspension and debarment policies.

DOT Operating Administrations are responsible for making timely decisions on
S&D cases and reporting data into the DOT S&D system, which is used to track
and monitor the Department’s S&D activity. Within 45 calendar days of an S&D
referral, Operating Administrations are required to evaluate case information and
take one of the following actions:

• Initiate an exclusion action (a suspension, debarment, or suspension with
  proposed debarment), which excludes a party from receiving Federal contracts
  or grants;

• Accept a party’s voluntary exclusion under settlement terms with the agency;

• Enter into a settlement agreement with the referred party, which outlines
  certain requirements the party must comply with in lieu of an exclusion; or

• Take no action.

OSPE reports new exclusion actions (along with updates to prior exclusion
actions) to SAM, the governmentwide S&D data system managed by the General
Services Administration. This reporting is intended to prevent excluded parties
from receiving Federal awards, certain subcontracts, or certain types of Federal
assistance and benefits across the Government.

In 2010, we reported that DOT’s S&D decisions and reporting were significantly
delayed due to inefficient processes and lack of resources dedicated to S&D
workload. In addition, we found weaknesses in DOT’s S&D policies, procedures,
and internal controls, including unclear requirements for S&D decisions and
insufficient oversight. In response to our 2010 report recommendations, the
Department revised its S&D Order to delegate OSPE responsibility for program
oversight, had Operating Administrations submit S&D implementation
procedures, and clarified the 45-day requirement for making S&D decisions. In
addition, the Department modified its DOT S&D system for use as a management
tool and to meet reporting requirements. However, this follow-up review found
additional weaknesses in program policy, controls, and implementation that
continue to allow untimely decisions and reporting.
                                                                                                                  5


DOT DID NOT CONSISTENTLY MAKE TIMELY DECISONS ON
S&D ACTIONS
DOT requires the Operating Administrations to make an initial S&D decision
within 45 days of notification of an S&D referral. However, Operating
Administrations’ decisions for at least 40 percent of the 218 S&D parties entered
into the DOT S&D system between April 2010 and April 2013 were made after
the 45-day requirement. OSPE relies on data in the DOT S&D system to monitor
the timeliness of S&D decisions, but significant data errors undermine the
system’s effectiveness as a management tool.


DOT’s S&D Decisions Continue To Exceed the 45-Day Timeframe
Our prior audit determined that delays with the majority of S&D decisions were
due, in part, to unclear requirements in the DOT S&D Order. While the
Department revised the Order to clarify the 45-day requirement as we
recommended, 14 S&D decisions continue to be delayed. Of the 218 parties entered
into the DOT S&D system between April 2010 and April 2013, 87 (40 percent)
had decisions that exceeded the 45-day timeframe (see figure 1 and table 1)—with
delays ranging from 2 to 1,373 days and averaging 205 days. The DOT S&D
system also contained blank data fields for 22 decisions, which prevented us from
assessing their timeliness.

Figure 1. Timeliness of DOT’s S&D Decisions, as Reported in the
DOT S&D System




Source: OIG review of 218 parties in the DOT S&D system


14
  In 2010, the Department revised its S&D Order to specify how to initiate an S&D action. The Order states that a
debarment action is initiated by mailing, emailing, or faxing written notification of a proposed debarment and a
suspension action is initiated by emailing, faxing, or mailing a written suspension notice. The Department may also
fulfill the Order’s requirement by taking one of the following actions within 45 days: accepting a party’s voluntary
exclusion under settlement terms with the agency; entering into a settlement agreement with the referred party; or
determining that no action should be taken.
                                                                                                             6


Table 1. Delayed S&D Decisions
                              Number of days to make S&D decision after initial referral
                  46–100         101–150         151–200          201–364          365–730       731 days or
                    days            days            days             days             days             more
Number
                       23               22                7              17               16                2
of parties
Source: OIG review of the 87 parties in the DOT S&D system with decisions that exceeded the
45-day timeframe

According to DOT system data, at least 119 of the 218 parties were referred based
on prior indictments or convictions. Decisions on such referrals should be
straightforward, as Federal regulations and the DOT S&D Order state that a
conviction or indictment constitutes adequate evidence for purposes of suspension
or debarment actions. However, 42 percent of the decisions for these 119 parties
exceeded the 45-day requirement—with delays ranging from 3 to 679 days and
averaging 175 days.

In response to our 2010 recommendations, the Department delegated S&D
program oversight responsibility to OSPE. However, our review identified
weaknesses in OSPE’s process for monitoring the timeliness of Operating
Administrations’ decisions. For example:

• Instead of regularly monitoring DOT’s S&D system data, OSPE relies on
  system-generated email notifications that cases are delinquent. However, we
  found that the system failed to generate email notifications for some delinquent
  cases.

• The email notifications are based on milestone dates in the DOT S&D system,
  a system that we determined to be unreliable. Additionally, the Operating
  Administrations can edit the milestone dates to extend the time allowed to
  make a decision but are not required to document the reasons for the change. 15
  Further, OSPE has no guidance specifying acceptable reasons for extending the
  milestone.

• Although OSPE’s S&D staff stated that they follow up on delinquent email
  notifications, table 1 on the previous page shows that decisions for 64 parties
  were delayed by over 100 days—indicating that OSPE’s efforts to address the
  delinquent decisions were insufficient.

These weaknesses stem from a lack of comprehensive procedures or guidance
detailing how OSPE should carry out its oversight responsibilities, which GAO
15
  In a November 2013 S&D newsletter, OSPE encouraged milestone resets to prevent cases from being identified as
delinquent.
                                                                                                                  7


states is an important characteristic of an effective S&D program. Although the
Department revised the S&D Order and issued a Standard Operating Procedure for
OSPE’s oversight and management of the S&D program, it lacks detailed
guidance on how OSPE should ensure data reliability for the DOT S&D system.
For example, there is no documented process for OSPE to validate the Operating
Administrations’ entries in the system. The reliability of the DOT S&D system is
important for accurately monitoring the timeliness of Operating Administrations’
decisions.

In addition, OSPE has not required Operating Administrations to develop internal
S&D policies and procedures. 16 Only 5 of 11 Operating Administrations have
developed S&D procedures, and 4 of these 5 have procedures that predate the
March 2010 DOT S&D Order and have not been updated to reflect the Order as
revised. Consequently, the Department lacks assurance that each Operating
Administration is adequately enforcing the requirements delegated to them in the
DOT S&D Order—such as making timely S&D decisions and reporting up-to-date
data on its S&D activity into the DOT S&D system.


S&D System Data Errors Undermine OSPE’s Efforts To Monitor
Decision Timeliness
As part of its oversight duties, OSPE is responsible for verifying the accuracy and
completeness of DOT S&D system data. Accurate and complete system data are
critical because OSPE relies on the data to monitor the timeliness of Operating
Administrations’ S&D decisions. However, our review of the DOT S&D system
identified significant data errors and omissions that undermine the system’s
effectiveness as a management tool and compromise the accuracy of reports that
OSPE is required to submit annually to the Deputy Secretary and other
stakeholders.

For example, when verifying our analysis of the 141 FHWA parties in our audit
universe, FHWA identified inconsistencies between DOT S&D system data and
FHWA’s case files for 129 parties (92 percent). Many of these errors related to the
initial decision date, which is used to calculate compliance with the 45-day
requirement. For one party, FHWA’s initial decision date was almost 16 months
earlier than the date in the DOT S&D system. As a result of these errors, 23 parties
initially identified as exceeding the 45-day requirement (based on the dates in the
DOT S&D system) actually met the requirement (based on FHWA’s data), and
17 parties identified as meeting the requirement actually exceeded it. 17 In 2011,

16
   According to the DOT S&D Order, Operating Administrations and Secretarial Offices “shall submit all new and
revised procedures, if any, which implement any of the requirements of FAR Subpart 9.4, 2 C.F.R. Parts 180 and 1200,
and this Order to the OSPE for review.”
17
   We revised our findings based on the dates provided by FHWA.
                                                                                                           8


FHWA developed its own tracking log to record and manage its S&D activities
and to compensate for errors in DOT’s system.

Several control weaknesses underlie the deficiencies in the DOT S&D system:

• First, OPSE has been delegated responsibility to ensure the accuracy and
  completeness of the DOT S&D system data, but it lacks documented
  procedures to perform this review effectively. For example, although OSPE
  stated that it performs monthly reconciliations of system data, these
  reconciliations only request the Operating Administrations to verify total case
  counts reported in the system. Additionally, OSPE only reviews a limited
  number of data fields in system-generated reports and does not validate these
  data against supporting documentation. Therefore, OSPE’s current methods are
  insufficient to ensure the accuracy and completeness of all system data.

• Second, OSPE has not adequately defined the type of data that each field is
  intended to capture, as there is no data dictionary to describe the fields. As a
  result, Operating Administrations are unsure what data to input into those
  fields—leading to significant discrepancies in the data. For example, OSPE
  officials could not tell us the difference between the “Action Date” and “S/D
  Start Date” fields, which both appear to capture the S&D action’s effective
  date. In addition, FHWA S&D staff stated that the “Duration” field should
  capture a length of time (such as 5 months), but OSPE officials stated that it
  should be a date (such as January 1, 2014).

• Finally, OSPE is unclear about its role in managing, overseeing, and ensuring
  the accuracy of the DOT S&D system. A senior representative from OSPE’s
  S&D office stated that the Chief Information Office (CIO) was the system
  owner and that OSPE staff had limited user rights. Therefore, OSPE staff could
  not explain the system’s functions, or adjust incomplete or inaccurate data in
  the system. However, during subsequent discussions, the CIO officials told our
  office and OSPE S&D officials that OSPE was, in fact, the system owner and
  did have full user rights.

Data errors prevent OSPE from using the DOT S&D system as an effective
management tool to help ensure that Operating Administrations comply with the
45-day timeframe for S&D decisions. Additionally, data errors compromise the
accuracy of reports that OSPE is required to submit annually to the Deputy
Secretary, other key Department executives, and the Interagency Suspension and
Debarment Committee (ISDC), 18 which reports to Congress on the status of
Federal S&D activity. CIO officials stated that they plan to develop an alternative

18
  The Interagency Suspension and Debarment Committee is comprised of executive branch organizations that work
together to support S&D programs across the Government.
                                                                                 9


platform for the DOT S&D system—a process that they estimate will begin in
fiscal year 2015.


OSPE DOES NOT ALWAYS REPORT TIMELY AND ACCURATE
DATA ON DOT’S EXCLUSION ACTIONS INTO SAM
The Department continues to provide untimely and inaccurate reporting to SAM.
Additionally, OSPE does not adequately reconcile and validate the DOT S&D
system data with SAM entries to ensure the accuracy of the data it reports.


The Department’s Reporting to SAM Continues To Be Untimely
Federal regulations require agencies to report exclusion actions into SAM after the
exclusions become effective—within 3 days for procurement transactions and
5 days for non-procurement actions. Although OSPE is responsible for this
reporting requirement, it did not report a significant number of the 144 excluded
parties that we reviewed within these required timeframes.

To assess the timeliness of OSPE’s reporting for these 144 parties, we planned to
compare the dates the exclusion actions became effective with the dates the
exclusions were entered into SAM. However, OSPE and the Operating
Administrations could not tell us definitively which data field in the DOT S&D
system contained the exclusion action effective dates. Accordingly, we conducted
our assessment using three data sources that could potentially contain the
exclusion action effective dates: the “S/D Start Date” and “Action Date” fields in
the DOT S&D system and the “Active/Action Date” field in SAM. Regardless of
which data fields we used, our results show that OSPE did not meet federally
mandated timeframes for just over half of the Department’s exclusion actions (see
figure 2).

Figure 2. Timeliness of OSPE’s Entry of Exclusion Actions in
SAM




Source: OIG analysis of the 144 excluded parties in the DOT S&D system
                                                                                                                     10


In many cases, OSPE exceeded the federally mandated timeframes for entering
exclusion actions—with average delays ranging from 61 to 156 days depending on
the data field used (see table 2). In addition, blank or illogical 19 entries in all three
data fields prevented us from assessing the timeliness of OSPE’s reporting for
some exclusion actions.

Table 2. Average Number of Days OSPE Exceeded 3/5 Day
Mandated Reporting Timeframes
                                                                                     Average number of days
Data field                                Data system                              OSPE exceeded timeframes
S/D Start Date                            DOT S&D system                                                           156
Action Date                               DOT S&D system                                                             78
Active/Action Date                        SAM                                                                        61
Source: OIG analysis of the 144 excluded parties in the DOT S&D system

These delays are attributable in part to ambiguous reporting requirements in the
DOT S&D Order. Although the Order outlines a process for S&D reporting, the
language is vague and does not accurately reflect Federal timeframes or the
transition to SAM. For example, the Order directs the Operating Administrations
to “promptly” notify OPSE after making exclusion decisions. However, because
the Order does not define what length of time would be considered “prompt,” it is
not clear how many days Operating Administrations have to notify OSPE to
ensure that the Department meets the 3- or 5-day reporting requirement.
Furthermore, the Order directs OSPE to report all exclusion actions to SAM
within 5 days of a decision, which does not reflect the current Federal timeframe
of 3 days for procurement-related exclusions (effective April 2010).

Additionally, we reported in 2010 that the Operating Administrations delayed
notification of exclusion decisions to OSPE. Our current review determined that
these delays persist—contributing to untimely reporting to SAM. For example,
MARAD debarred two parties for 3 years but did not notify OSPE to report them
in SAM until approximately 5 months after the exclusions became effective.


OSPE’s Reviews Did Not Detect or Resolve Significant Data
Discrepancies That Resulted in Inaccurate Reporting in SAM
In response to our 2010 report recommendation, the Department revised the DOT
S&D Order to require OSPE to periodically reconcile and validate data from the
DOT S&D system and SAM. This internal control is intended to ensure that data
are accurately and completely reported. However, OSPE’s reviews did not detect

19
     For some entries, the exclusion action effective dates came a year or more after the exclusions were entered in SAM.
                                                                                                           11


or resolve significant data discrepancies—putting the Federal Government at risk
of doing business with prohibited parties. Specifically:

• OSPE did not report seven excluded parties to SAM, even though they were
  listed as suspended or debarred in the DOT S&D system. Prior OSPE
  reconciliation reviews found that at least four of these parties were not reported
  in SAM. However, OSPE did not take corrective action, and the parties
  remained unreported until we identified them during our review. For example,
  one of the seven parties was suspended in November 2010 but was not
  reported in SAM until November 2013—3 years later. Once we notified the
  Department, OSPE entered the seven parties into SAM.

• DOT’s SAM entries contain numerous spelling errors and incorrect or
  incomplete data. For example, OSPE entered Shire Corporation, a suspended
  party, in SAM as “Shrine” and did not enter the company’s DUNS number. 20
  Accurate DUNS numbers and exact spellings 21 of parties’ names are
  particularly critical for effective searches in SAM, as these are two primary
  ways to search for excluded parties.

• DOT had four excluded parties with duplicate entries in SAM, as of
  April 2014. For example, one party was originally listed in SAM as having an
  indefinite suspension, but the party was subsequently debarred with a
  definitive end date. Instead of updating the party’s original suspension entry,
  OSPE created a second entry in SAM for the debarment. Once the party’s
  debarment ends, the indefinite suspension entry will remain active as it has no
  end date. As a result, the party will be incorrectly listed in SAM as being
  excluded. At least one party complained to DOT about being erroneously
  excluded in SAM, which interfered with its ability to receive Federal awards.

OSPE’s reconciliations of the two systems were not effective to detect or resolve
these errors in part because the office has not developed procedures or guidance
on how to perform these reviews. OSPE’s S&D staff stated that they compare data
in the two systems using a manual process, which is less efficient and more prone
to human error than an automated process.

The Government’s 2012 transition from EPLS to SAM also created problems.
According to an OSPE representative, DOT modeled its S&D system after the
former EPLS system, so its data fields do not allow for a one-to-one match to the
data fields in SAM. Under EPLS, OSPE was also able to transfer data
electronically from the DOT S&D system. However, the conversion to SAM

20
   A Dun and Bradstreet Data Universal Numbering System (DUNS) number is a unique nine-digit identification
number for each physical location of a business. A business must have a DUNS number registered with the Federal
Government to receive Federal contracts or grants.
21
   For example, a search for “AB Construction” would not include results for “A.B. Construction.”
                                                                                                 12


disabled the electronic transfer process, causing OSPE to use a manual process to
report data, elevating the risk of human error. OSPE plans to reestablish the
electronic data transfer capability when funding becomes available.

Moreover, OSPE’s S&D staff does not resolve issues identified during the
reconciliations, and the OSPE S&D manager stated that she does not review the
reconciliation results. OSPE has also not corrected data discrepancies reported by
the Operating Administrations. For example, an FTA S&D official told us that the
Agency had notified OSPE in November 2012 of errors related to eight parties,
and OSPE said it had corrected the errors. However, our review determined that
the errors remain uncorrected.

OSPE attributes the weaknesses in S&D program oversight to its lack of staffing
resources and expertise. GAO reported that a dedicated program with full-time
staff is a key characteristic of the most active and effective S&D programs. 22 The
senior OSPE official charged with overseeing the DOT S&D program stated that
the office focuses on overseeing grant management, so oversight of the S&D
program is a collateral duty. Consequently, OSPE has not fully carried out its
S&D oversight responsibilities as outlined in the DOT S&D Order. For example:

• OSPE had not chaired required internal S&D meetings with DOT stakeholders
  to discuss issues, address concerns, and promote standard practices for S&D
  decisions and reporting. According to the DOT S&D Order, OSPE is required
  to regularly chair and document these meetings. In response to our current
  audit findings, OSPE held its first internal S&D meeting in March 2014. OSPE
  stated that it would hold these meetings quarterly.

• The DOT S&D Order requires Operating Administrations to require recipients
  to include a requirement, in all non-procurement agreements, that recipients
  report to the Operating Administration if they suspend or debar a party. Only
  PHMSA and FTA 23 include the requirement in their non-procurement
  agreements that recipients report suspensions and debarments they impose.
  OSPE does not provide adequate oversight to ensure that the Operating
  Administrations comply with the Order’s requirements—increasing the risk
  that Federal funds could be awarded to suspended or debarred firms.

• In response to our 2010 audit, the Department revised its S&D Order, requiring
  Operating Administrations to direct recipients of non-procurement agreements
  to review the list of excluded parties in SAM before awarding any third-party
  assistance agreements or contracts. Previously, DOT’s S&D Order stated that

22
   GAO, Some Agency Programs Need Greater Attention, and Governmentwide Oversight Could Be Improved
(GAO-11-739), Aug. 31, 2011. DOT was not included in this review.
23
   PHMSA had the requirement in place before we conducted our review. However, FTA updated its Master
Agreement to include this requirement during our review.
                                                                                                                    13


     Operating Administrations were to “encourage” recipients to utilize the list of
     excluded parties. OMB’s S&D guidance, which the Department implements
     through its S&D regulations, allows three methods for recipients to verify
     whether awardees are excluded. Checking SAM’s excluded parties list is one
     of those three. 24 Certain DOT Operating Administrations, such as FTA, have
     included language in their grant guidance to strongly recommend that their
     recipients check SAM to prevent awards to excluded parties. This best practice
     helps ensure that DOT funds are not awarded to excluded parties.


CONCLUSION
The S&D program is intended to provide immediate protection to the Government
and taxpayers from those who engage in dishonest or illegal conduct or are lacking
in business integrity. Although DOT has taken actions to strengthen its S&D
program since our 2010 report—such as delegating program oversight to OPSE—
problems with delayed S&D decisions and untimely and inaccurate reporting
persist. Sustained management attention is needed to ensure that the Department
complies with Federal S&D requirements and its own S&D program. By
improving its S&D oversight procedures, DOT will be better positioned to protect
the Government from doing business with prohibited parties, and prevent the
unethical and unlawful use of Federal funds.


RECOMMENDATIONS
We recommend that the Senior Procurement Executive take the following actions:

 1. Implement a detailed process for OSPE staff to regularly evaluate Operating
    Administrations’ compliance with departmental and Federal timeframes for
    (a) initiating an S&D action (within the DOT S&D Order 45-day requirement)
    and (b) reporting to SAM (3 days for procurement actions; 5 days for non-
    procurement actions). This process should include follow-up actions to correct
    instances of noncompliance.

 2. Require all Operating Administrations to establish or update their S&D
    procedures to implement Federal S&D requirements and the DOT S&D
    Order, including:

     a. requiring recipients to report exclusions and


24
  The three methods for ensuring a potential recipient is not excluded or disqualified are: (1) checking SAM,
(2) collecting a certification from that person, or (3) adding a clause or condition to the covered transaction with that
person.
                                                                              14


   b. strongly recommending that recipients of non-procurement agreements
      check SAM before awarding third-party assistance agreements or contracts.

3. Implement detailed procedures for regularly verifying the accuracy and
   completeness of the data reported to the DOT S&D system—including, at a
   minimum, the key data fields needed for OSPE to assess the timeliness of
   decisions and reporting.

4. Develop a data dictionary for the DOT S&D system that defines each data
   field and identifies which fields to populate. Make this data dictionary
   available to all relevant stakeholders and include it in DOT S&D system
   training.

5. Revise the DOT S&D Order to reflect the transition to SAM—including
   revised Federal timeframes for entering data into SAM.

6. Implement a detailed process for OSPE staff to regularly reconcile data in the
   DOT S&D system and SAM—including steps for identifying and correcting
   data discrepancies. Using this new process, complete a comprehensive
   reconciliation of data in the DOT S&D system and SAM, and correct any
   discrepancies.

7. Conduct and document quarterly internal S&D meetings with all Operating
   Administrations and S&D stakeholders, as established in the DOT S&D
   Order.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided OSPE with our draft report on July 24, 2014, and received its
response on September 25, 2014. OSPE’s complete response is included as an
appendix to this report. OSPE concurred with six of seven recommendations and
partially concurred with one.

For recommendation 1, OSPE concurred and agreed to implement the
recommendation “as written.” However, additional language in the response
creates ambiguity regarding OSPE’s intended implementation. OSPE states that it
will update its S&D policies to require Operating Administrations to “initiate
appropriate actions that may lead to S&D decisions” within 45 days and that
“actual suspension and/or debarment would be informed by additional information
and/or evidence.” We are concerned that this policy revision does not align with
the current S&D decision timelines in the DOT S&D Order. For example, under
the current Order, the Operating Administrations are to initiate S&D actions
                                                                                15


within the 45-day timeframe—which can involve emailing, mailing, or faxing a
suspension notice or proposed debarment notice. Since a suspension becomes
effective when the notice is signed, it is inconsistent to suggest that the “actual
suspension” would be “informed by additional information and/or evidence.” As
we reported in 2010 and in this report, vague S&D policy language—such as the
revision that OSPE is proposing—has contributed to untimely S&D decisions and
reporting. Moreover, this approach will not provide OSPE with defined measures
for monitoring the Operating Administrations’ compliance with the 45-day
requirement. We request that OSPE provide clarification on these matters. Until
we receive this information, we consider recommendation 1 open and unresolved.

For recommendation 2, OSPE partially concurred and agreed to address only part
of our recommendation. Specifically, OSPE stated that it will strongly encourage
recipients to review SAM prior to entering into covered transactions. However,
OSPE stated that it cannot require recipients to report exclusions that are not
related to the grant award without regulatory guidance but did not identify the
basis for this conclusion. Additionally, OSPE did not specify whether it would
require recipients to report exclusions that are related to the grant award. We
request that OSPE provide clarification on these matters. Until we receive this
information, we consider recommendation 2 open and unresolved.

For recommendations 3, 5, and 6, OSPE concurred and agreed to implement the
recommendations “as written” within an acceptable timeframe. We consider all
three of these recommendations resolved but open pending completion of the
planned actions.

For recommendation 4, OSPE concurred and requested that we close the
recommendation based on actions completed in July 2014. However, OSPE did
not provide us documentation supporting this action until October 8, 2014. We
consider recommendation 4 resolved but open pending our review of the
documentation and a determination that this action fully meets the intent of our
recommendation.

For recommendation 7, OSPE concurred and requested that we close this
recommendation based on quarterly S&D meetings that began in March 2014.
However, DOT’s S&D Order and OSPE’s S&D Standard Operating Procedures
call for OSPE to document, as well as conduct, these meetings. The information
OSPE provided only included agendas and sign-in sheets as meeting
documentation. We had previously informed Departmental representatives that
agendas and sign-in sheets would not meet the intent of our recommendation
because they do not document the substance of the meetings. Therefore, we
request that OSPE clarify how it will document the substance of these meetings.
Until then, we consider recommendation 7 open and unresolved.
                                                                                 16


ACTIONS REQUIRED
We consider recommendations 3, 4, 5, and 6 resolved and open pending
completion. We consider recommendations 1, 2, and 7 open and unresolved. In
accordance with DOT Order 8000.1C, we request that OSPE provide additional
information for recommendations 1, 2, and 7, as described above, within 30 days
of this report.

We appreciate the courtesies and cooperation of Department of Transportation
representatives during this audit. If you have any questions concerning this report,
please call me at (202) 366-5225 or Kenneth Prather, Program Director, at
(202) 366-1820.

                                         #
cc:   DOT Audit Liaison, M-1
      FAA Audit Liaison, AAE-100
                                                                              17


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from March 2013 to through September 2014 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides reasonable basis for our findings and conclusions based on our audit
objectives.

We assessed whether the DOT S&D program is effective to support timely
decisions and accurate and prompt reporting of S&D activities. To conduct our
work, we reviewed Federal and departmental S&D policies. Based on these
policies, we developed a standardized questionnaire that we provided to OSPE and
DOT’s Operating Administrations to determine what controls were in place to
support compliance with S&D decisions and reporting requirements. We also
interviewed OSPE and the Operating Administration’s S&D staff to follow up on
the questionnaire and learn more about the Department’s S&D practices.

To determine if DOT complied with required timeframes for S&D decisions and
reporting to SAM, we analyzed data reported in the DOT S&D system as of
June 20, 2013. Our universe included all cases and parties with initial referral
dates between April 1, 2010, and April 1, 2013. We selected April 1, 2010,
because DOT’s revised S&D Order 4200.5E became effective on March 15, 2010.
The universe included 218 individual parties representing 87 S&D cases belonging
to 6 Operating Administrations: FAA, FHWA, FTA, MARAD, NHTSA, and
PHMSA. The system showed exclusions for 144 of the 218 parties. We used this
universe of 144 parties—representing 59 unique cases and 5 Operating
Administrations (FAA, FHWA, FTA, MARAD, and NHTSA)—to analyze the
timeliness of DOT’s reporting to SAM. We asked the Operating Administrations
to validate our analysis against their records.

To assess the accuracy and reliability of DOT’s reporting of S&D activity, we
performed a reconciliation of data between the DOT S&D system and SAM. We
extracted a universe of all 520 parties reported in the DOT S&D system as of
June 20, 2013. For parties with active exclusion actions, we compared the party’s
data elements—such as name, address, DUNS number, and exclusion action start
and end date—to those reported in SAM (as of June 20, 2013) and EPLS (as of
November 5, 2012). We asked the Operating Administrations to validate our
analysis against their records.




Exhibit A. Scope and Methodology
                                                                              18


Although we found weaknesses in the DOT S&D system data, we deemed the data
sufficiently reliable for the purpose of our audit because (1) the system was the
only available source of DOT’s S&D data and (2) we only used the system data to
identify parties and cases. We validated the data for accuracy and completeness
using SAM and feedback from the Operating Administrations. Our report findings
are based on this corrected data.




Exhibit A. Scope and Methodology
                                                                                                     19


EXHIBIT B. SUMMARY OF KEY ELEMENTS OF FEDERAL
SUSPENSION AND DEBARMENT POLICIES

SUSPENSION                                        DEBARMENT
Overview
• An action that temporarily prevents a party     • A final determination that a party is not
  from participating in most Government-            presently responsible and thus ineligible to
  funded procurement and non-procurement            participate in federally funded contracts or
  transactions, pending completion of an            grants
  investigation or legal proceedings
Standards of Evidence/Causes
• Adequate evidence that there may be a           • Preponderance of evidence that the party
  cause for debarment; an indictment                warrants debarment; a conviction or a civil
  constitutes adequate evidence                     judgment constitutes a preponderance of
                                                    evidence
• Immediate need for action to protect Federal
  business interests                              • Agency may consider remedial measures and
                                                    mitigating factors when determining party’s
                                                    present responsibility
Prior Notice Required
• No                                              • Yes
Timeframe for Operating Administrations To Take Action Under DOT Order
• Within 45 days of notification of an indictment • Within 45 days of notification of a conviction
  or other referral                                 or other referral
Period of Ineligibility
• Usually not to exceed 1 year                    • Usually not to exceed 3 years
Entitlement To Contest
• After notice from the agency’s suspension       • If a party contests the debarment during the
  official, but a suspension is effective           notice period, the debarment is not effective
  immediately                                       until the suspension and debarment official
                                                    issues a written decision

Source: DOT Order 4200.5E, Suspension and Debarment Procedures and Ineligibility;
2 CFR § 180; OMB Guidelines to Agencies on Governmentwide Debarment and Suspension
(Nonprocurement); and FAR 9.4




Exhibit B. Summar y of Key Elements of Federal Suspensi on and
Debarment Polici es
                                                                  20


EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT

Name                                     Title

Kenneth Prather                          Program Director

Ann Wright                               Project Manager

Jill Cottonaro                           Senior Analyst

Marguerite Nealon                        Senior Auditor

Teri Vogliardo                           Analyst

Christina Lee                            Writer-Editor

Nick Coates                              Legal Counsel

William Savage                           Information Technology
                                         Specialist




Exhibit C. Major Contributors to This Report
                                                                                                              21

APPENDIX. AGENCY COMMENTS

                                                                  Memorandum
U.S. Department of
Transportation
Office of the Secretary of
Transportation

                                                                                     Date:
   Subject:              INFORMATION: Management Comments to
                                                                                               SEP 2 5 2014
                         Office of the Inspector General (OIG) Draft
                         Report on Suspension and Debarment

   From:                 Brodi Fontenot
                         Assistant Secre

   Prepared by:              Willie Smith
                             Senior Procurement Executive (SPE)

   To:                   Mary Kay Langan-Feirson
                         Assistant Inspector General for Acquisition
                          and Procurement Audits

   The Office of the Senior Procurement Executive (OSPE) continues to provide active oversight of the
   Suspension and Debarment (S&D) Program by monitoring and tracking S&D cases. The Department
   achieves this by collaborating with Federal-wide partners to ensure entities that have wasted, defrauded
   and/or abused federal funds do not receive future federal awards. Consistent with OIG audit findings
   and recommendations in 2010, and as a result of internal observations, OSPE developed an S&D
   tracking and reporting system; updated the previous S&D DOT Order 4200.5D (which designated
   oversight responsibility to the SPE); and developed Standard Operating Procedures to provide continued
   oversight for the S&D program. The OSPE is committed to implementing further actions that might
   improve oversight and management. To meet these improvements:

         •    The OSPE has updated an initial draft of Standard Operating Procedures (SOP), and has
              initiated several enhancements to the S&D tracking system. These updates and enhancements
              will be in line with both the FAR 9.4 for procurement and 2 CFR 180 for non-procurement
              cases. The OSPE has requested Operating Administrations (OA) provide updated policies and
              procedures that reflect FAR 9.4 for procurement requirements and 2 CFR 180 for non­
              procurement.
         •    The OSPE developed and posted a data dictionary within the S&D Tracking and Reporting
              System.
         •    The OSPE is currently updating S&D DOT Order 4200.5E. The updated S&D DOT Order will
              follow the FAR 9.4 for procurement and 2 CFR 180 for non-procurement.
         •    The OSPE will update S&D policies and procedures stating that within 45 days, OAs are
              required to initiate appropriate actions that may lead to a suspension and/or debarment decision.
              Any actual suspension and/or debarment would be informed by additional information and/or
              evidence. Specific action and reporting requirements will be noted in the revised DOT Order,
              to be completed by December 31,2014.

   Based upon our review of this draft report, we agree to implement OIG recommendations 1 and 3-7,
   as written. Implementation for recommendations 1, 3, 5, and 6 will be completed by December 31,

         Appendix. Agency Comments
                                                                                                         22


2014. Recommendation 4 was completed in July 2014. S&D meetings began in March 2014, which
satisfies recommendation 7. Upon issuance of the report, we request these recommendations be closed as
implemented.

We concur in part to recommendation 2. The OSPE will strongly encourage recipients to report
exclusions not related to the grant award to the agency and to review SAM prior to entering into a
covered transaction, but cannot require this without regulatory guidance. To address recommendation
2, our revised DOT Order, to be completed by December 31, 2014, will state that recipients "should"
report exclusions unrelated to the grant award and "should" check SAM, prior to making an award.

We appreciate this opportunity to offer additional perspective on the OIG draft report. Please contact
Ellen Shields, OSPE Associate Director for Financial Assistance Policy and Oversight, at (202) 366-
4268 with any questions or if the OIG would like to obtain additional detail about the comments.




     Appendix. Agency Comments
